         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Audit Report

Department of Energy's Nuclear
Waste Fund's Fiscal Year 2012
Financial Statements




OAS-FS-13-05                       November 2012
                                 Department of Energy
                                    Washington, DC 20585
                                       November 28, 2012



MEMORANDUM FOR THE DIRECTOR, OFFICE OF STANDARD CONTRACT
               MANAGEMENT, OFFICE OF GENERAL COUNSEL



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                          for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Department of Energy's Nuclear
                         Waste Fund's Fiscal Year 2012 Financial Statement Audit"

The attached report presents the results of the independent certified public accountants' audit of
the Department of Energy's Nuclear Waste Fund's (Fund) Fiscal Year 2012 balance sheet and the
related statements of net cost, changes in net position and budgetary resources.

To fulfill the Office of Inspector General's (OIG) audit responsibilities, we contracted with the
independent public accounting firm of KPMG, LLP (KPMG) to conduct the audit, subject to our
review. KPMG is responsible for expressing an opinion on the Fund's financial statements and
reporting on applicable internal controls and compliance with laws and regulations. The OIG
monitored audit progress and reviewed the audit report and related documentation. This review
disclosed no instances where KPMG did not comply, in all material respects, with generally
accepted Government auditing standards. The OIG did not express an independent opinion on
the Fund's financial statements.

KPMG concluded that the financial statements present fairly, in all material respects, the
financial position of the Fund as of September 30, 2012 and 2011, and its net costs, changes in
net position, and budgetary resources for the years then ended, in conformity with United States
generally accepted accounting principles.

The auditors' review of the Fund's internal control structure and compliance with certain laws
and regulations disclosed no material weaknesses or instances of noncompliance required to be
reported under generally accepted Government auditing standards or applicable Office of
Management and Budget guidance.
                                               2


                                                                   Report No.: OAS-FS-13-05

Attachment

cc:   Acting Deputy Chief Financial Officer, CF-2
      Director, Office of Financial Control and Reporting, CF-12
UNITED STATES DEPARTMENT OF ENERGY
        NUCLEAR WASTE FUND

        Annual Financial Report

      As of and for the Years Ended
      September 30, 2012 and 2011




              November 13, 2012
                    UNITED STATES DEPARTMENT OF ENERGY
                            NUCLEAR WASTE FUND

                                Annual Financial Report
                        September 30, 2012 and September 30, 2011

                                    Table of Contents

                                                                                 Page
Overview
   Reporting Entity and Financial Performance                                     1
   Analysis of Systems, Controls and Legal Compliance                             2
Independent Auditors’ Report                                                      4
Financial Results
   Balance Sheets                                                                 8
   Statements of Net Costs                                                        9
   Statements of Changes in Net Position                                         10
   Statements of Budgetary Resources                                             11
   Notes to Financial Statements                                                 12
   Required Supplementary Stewardship Information for Research and Development   24
   Supplementary Information – Schedule I                                        25
     Schedule of Cumulative Net First and Second Repository Costs
   Supplementary Information – Schedule II                                       26
     Schedule of Cumulative Revenues and Deferred Revenue
                                          OVERVIEW
                          (Unaudited – See Accompanying Auditors’ Report)

Reporting Entity

The Nuclear Waste Policy Act of 1982 (NWPA) (Public Law 97-425) established the Office of
Civilian Radioactive Waste Management (OCRWM) within the United States (U.S.) Department
of Energy (Department or DOE). OCRWM’s mission was to manage and dispose of the Nation’s
spent nuclear fuel (SNF) and high-level radioactive waste (HLW). The Nuclear Waste Policy
Amendments Act of 1987 (Title V, Public Law 100-203) directed the Secretary of Energy to
characterize only the Yucca Mountain site in Nevada as a candidate site to determine if it was
suitable for a repository for SNF and HLW.

The characterization of the Yucca Mountain site was completed and in 2008 OCRWM submitted a
license application to the U.S. Nuclear Regulatory Commission (NRC or the Commission) seeking
authorization to construct the Yucca Mountain repository. In fiscal year (FY) 2009, the Obama
Administration decided to terminate the Yucca Mountain Project. On January 29, 2010, at the
direction of the President, the Secretary announced the formation of the Blue Ribbon Commission
and on February 1, 2010, the President issued the FY 2011 Budget Request with a zero budget
request for OCRWM. No funds were requested in the FY 2012 Budget Request. On March 3,
2010 the Department filed a motion to withdraw with prejudice the Yucca Mountain License
Application pending before the Atomic Safety and License Board (ASLB) of the NRC. On June
29, 2010, the ASLB issued an order denying the Department’s motion to withdraw the License
Application, which the Department appealed to the NRC, the body with final authority over NRC
decision-making. On October 1, 2010 the Department shifted OCRWM program responsibilities
to various Departmental Program Secretarial Offices.

Funds remaining from OCRWM were used between October 1, 2010 and September 30, 2012 to
continue the management of the Nuclear Waste Fund (NWF), litigation activities, and for
additional closure activities. The funds are managed by the Office of Nuclear Energy.

On September 9, 2011, the NRC issued its decision in which the Commission (1) announced it
was split evenly on the question whether the NRC’s ASLB had properly refused to allow the
Department’s motion to withdraw the Yucca Mountain construction license application with
prejudice, and (2) unanimously held that “budgetary limitations” required the ASLB to dispose of
pending matters by the end of the 2011 fiscal year and to document the history of the adjudicatory
process. On September 30, 2011, the Board issued a memorandum and order suspending the
licensing proceeding due to uncertainty regarding the availability of future appropriations from the
NWF to pay for future proceeding and a lack of staff to continue the proceeding since the
President’s fiscal year 2012 budget request for Yucca Mountain high-level waste activities did not
include a request for any full-time equivalent positions. That matter remains suspended.

As discussed later, the BRC submitted a final report in January 2012 with its recommendations on
these issues for consideration by the Administration and Congress, as well as interested state,
tribal and local governments, other stakeholders, and the public.




                                                 1
Fiscal Year 2012 and 2011 Financial Performance

The NWF consists of fees paid by the owners and generators of SNF from commercial reactors, in
accordance with provisions of their contracts with the Department for disposal services. NWF
assets in excess of those authorized by Congress to pay Nuclear Waste Policy Act costs are
invested in U.S. Treasury securities. The Defense Nuclear Waste Disposal Act (DNWDA) was
established by the Congress in lieu of direct payment of fees by the Department into the NWF to
pay for the disposal costs of the HLW resulting from atomic energy defense activities and other
Department-managed nuclear materials. As of September 30, 2012, cumulative revenue from fees
and the DNWDA, totaled approximately $ 24.2 billion; and cumulative interest earnings and other
revenue totaled approximately $19.2 billion. Cumulative expenditures by the Department from
appropriations and amounts authorized by Congress, including direct appropriations to the NRC,
the now defunct Office of the Nuclear Waste Negotiator, and the Nuclear Waste Technical Review
Board, totaled approximately $11.4 billion.

As of September 30, 2012, the U.S. Treasury securities held by the Department related to the
NWF had a market value of $38.7 billion compared to $35.1 billion at the end of FY2011.
Investment income and the net gains from the sale of securities that matured totaled $1.3 billion
and $1.3 billion for FY 2012 and FY 2011, respectively.

ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Analysis of systems, controls, and legal compliance is performed, reported, and audited at the
Departmental level. The results of these reviews and assessments are incorporated in the
Department’s Annual Financial Report. A significant issue, Nuclear Waste Disposal, was reported
by management in FY 2012 and FY 2011 and is described below.

Federal Managers’ Financial Integrity Act

The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 requires that agencies establish
internal control and financial systems to provide reasonable assurances that the integrity of Federal
programs and operations are protected. Furthermore, it requires that the head of the agency
provide an annual assurance statement on whether the agency has met this requirement and
whether any material weaknesses exist.

In response to the FMFIA, the Department developed an internal control program which holds
managers accountable for the performance, productivity, operations, and integrity of their
programs through the use of management controls. Annually, senior managers at the Department
are responsible for evaluating the adequacy of the internal controls surrounding their activities and
determining whether they conform to the principles and standards established by the Office of
Management and Budget, and the Government Accountability Office. The results of these
evaluations and other senior management information are used to determine whether there are any
internal control problems to be reported as material weaknesses. The Departmental Internal
Control and Audit Review Council, the organization responsible for oversight of the Management
Control Program, makes the final assessment and decision for the Department.



                                                 2
Significant Issue - Nuclear Waste Disposal: Leadership Challenge

The government’s acceptance of spent nuclear fuel and high-level radioactive waste, authorized
under the NWPA, has been delayed by various factors. The Secretary, acting at the direction of
the President, established the Blue Ribbon Commission on America’s Nuclear Future (the
Commission) to conduct a comprehensive review of policies for managing the back end of the
nuclear fuel cycle, including all alternatives for the storage, processing, and disposal of civilian
and defense used nuclear fuel, high-level waste, and materials derived from nuclear activities. The
Commission completed its review and provided the final report to the Secretary in January 2012.
The Department is preparing a national strategy for the management and disposition of
commercial and defense high-level radioactive materials.

Actions Taken and Remaining

On January 29, 2010, the Department Secretary announced the formation of a Blue Ribbon
Commission on America's Nuclear Future to provide recommendations for developing a safe,
long-term solution to managing the Nation's used nuclear fuel and nuclear waste. The Blue
Ribbon Commission produced a final report in January 2012. As a result, the Department is
preparing a national strategy for the management and disposition of commercial and defense
high-level radioactive materials consistent with the Blue Ribbon Commission’s recommendations.




                                                 3
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors' Report


United States Department of Energy's Nuclear Waste Fund and
The Inspector General, United States Department of Energy:

We have audited the accompanying balance sheets of the United States (U.S.) Department of Energy's
(Department or DOE) Nuclear Waste Fund (Fund), as of September 30, 2012 and 2011, and the related
statements of net cost, changes in net position, and budgetary resources, for the years then ended
(hereinafter referred to as “financial statements” or “basic financial statements”). The objective of our
audits was to express an opinion on the fair presentation of these financial statements. In connection with
our fiscal year 2012 audit, we also considered the Fund's internal control over financial reporting and tested
the Fund's compliance with certain provisions of applicable laws, regulations, and contracts that could have
a direct and material effect on these financial statements.

Summary
As stated in our opinion on the financial statements, we concluded that the Fund's financial statements as of
and for the years ended September 30, 2012 and 2011, are presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles.

As discussed in our Opinion on the Financial Statements, the Department changed the Fund’s presentation
for reporting the statement of budgetary resources in fiscal year 2012.

Our report emphasizes the Department is involved as a defendant in several matters of litigation relating to
its inability to accept waste by January 31, 1998, the date specified in the Nuclear Waste Policy Act of
1982, as amended.

Our consideration of internal control over financial reporting was not designed to identify all deficiencies
in internal control over financial reporting that might be deficiencies, significant deficiencies, or material
weaknesses. We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses as defined in the Internal Control Over Financial Reporting section of
this report.

The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards, issued by the Comptroller General of the United States, and Office of Management
and Budget (OMB) Bulletin Number (No.) 07-04, Audit Requirements for Federal Financial Statements, as
amended.

The following sections discuss our opinion on the Fund's financial statements; our consideration of the
Fund's internal control over financial reporting; our tests of the Fund's compliance with certain provisions
of applicable laws, regulations, and contracts; and management's and our responsibilities.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.

                                                       4
U.S. Department of Energy's
Nuclear Waste Fund
November 13, 2012
Page 2 of 4



Opinion on the Financial Statements
We have audited the accompanying balance sheets of the Fund as of September 30, 2012 and 2011, and the
related statements of net cost, changes in net position, and budgetary resources for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Fund as of September 30, 2012 and 2011, and its net costs, changes in net position,
and budgetary resources for the years then ended, in conformity with U.S. generally accepted accounting
principles.

As discussed in Note 2 to the financial statements, the Department changed its presentation for reporting
the statement of budgetary resources in fiscal year 2012, based on new reporting requirements under OMB
Circular No. A-136, Financial Reporting Requirements. As a result, the Department’s Nuclear Waste
Fund’s Statement of Budgetary Resources for fiscal year 2011 has been adjusted to conform to the current
year presentation.

As discussed in Note 9 to the financial statements, the Department is involved as a defendant in several
matters of litigation relating to its inability to accept waste by the January 31, 1998 date specified in the
Nuclear Waste Policy Act of 1982, as amended. The Fund has recorded liabilities for likely damages of
$19.7 billion, and $19.1 billion as of September 30, 2012 and 2011, respectively.

U.S. generally accepted accounting principles require that the information in the Overview and Required
Supplementary Stewardship Information sections be presented to supplement the basic financial
statements. Such information, although not a part of the basic financial statements, is required by the
Federal Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an opinion
or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The supplementary information included in Supplementary Information – Schedules I and II for the
years ended September 30, 2012, is presented for purposes of additional analysis and is not a required part
of the basic financial statements. Such information is the responsibility of management and was derived
from and relates directly to the underlying accounting and other records used to prepare the basic financial
statements. Such information has been subjected to the auditing procedures applied in the audit of the basic
financial statements and certain additional procedures, including comparing and reconciling such
information directly to the underlying accounting and other records used to prepare the basic financial
statements or to the basic financial statements themselves, and other additional procedures in accordance
with auditing standards generally accepted in the United States of America. In our opinion, the
Supplementary Information – Schedules I and II for the years ended September 30, 2012 is fairly stated in
all material respects in relation to the basic financial statements as a whole.


                                                5
U.S. Department of Energy's
Nuclear Waste Fund
November 13, 2012
Page 3 of 4



We have also previously audited, in accordance with auditing standards generally accepted in the United
States of America, the financial statements of the Fund as of and for the years ended September 30, 1983
through September 30, 2010 (none of which are presented herein), and we expressed unqualified opinions
on those financial statements. The supplementary information included in Schedules I and II related to the
Fund's financial statements as of and for the years ended September 30, 1983 through September 30, 2010
was subjected to auditing procedures applied in the audits of those financial statements, and in our opinion,
is fairly stated in all material respects in relation to the financial statements from which it has been derived.

Internal Control Over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity's financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
fiscal year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that
we consider to be material weaknesses, as defined above.

Compliance and Other Matters

The results of our tests of compliance described in the Responsibilities section of this report
disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04, as amended.

                                                 *******

Responsibilities
Management's Responsibilities. Management is responsible for the financial statements; establishing and
maintaining effective internal control over financial reporting; and complying with laws, regulations, and
contracts applicable to the Fund.

Auditors' Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012 and 2011
financial statements of the Fund based on our audits. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States; and
OMB Bulletin No. 07-04, as amended. Those standards and OMB Bulletin No. 07-04, as amended, require
that we plan and perform the audits to obtain reasonable assurance about whether the financial statements
are free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of the Fund's internal control over financial
reporting. Accordingly, we express no such opinion.

An audit also includes:

                                                    6
U.S. Department of Energy's
Nuclear Waste Fund
November 13, 2012
Page 4 of 4



•     Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
      statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered the Fund's internal control over
financial reporting by obtaining an understanding of the Fund's internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the Fund's internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
Fund's internal control over financial reporting. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether the Fund's fiscal year 2012 financial statements
are free of material misstatement, we performed tests of the Fund's compliance with certain provisions of
laws, regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04, as amended. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the Fund. However, providing an opinion on compliance with laws, regulations, and
contracts was not an objective of our audit and, accordingly, we do not express such an opinion.

______________________________

This report is intended solely for the information and use of the Fund's and the Department of Energy's
management, the Department of Energy's Office of Inspector General, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 13, 2012




                                               7
                                                   UNITED STATES DEPARTMENT OF ENERGY

                                                                 NUCLEAR WASTE FUND

                                                                    Balance Sheets
                                                        As of September 30, 2012 and 2011
                                                               (Dollars in thousands)

                                                                                                FY 2012              FY 2011


ASSETS
Intragovernmental:
   Fund Balance with Treasury (Note 3)                                                      $         30,312     $         42,688
   Investments and Related Interest, Net (Note 4)                                                 28,771,125           26,728,279
   Accounts Receivable:
                     (Note 5)
         Utilities                                                                                    13,433               13,439
   Other Assets                                                                                           280                  772
               Total Intragovernmental Assets                                                     28,815,150           26,785,178

Accounts Receivable:
               (Note 5)
   Utilities                                                                                       3,241,948            3,246,550
Prepaid Pension Asset, Net                                                                             2,485                1,653
                                                      (Note 6)
General Property, Plant, and Equipment, Net                                                               379                  461
Other Assets                                                                                                -                    2

               Total Assets                                                                 $     32,059,962     $     30,033,844
LIABILITIES
Intragovernmental: (Note 8)
   Accounts Payable                                                                         $             942    $             854
   Deferred Revenue (Notes 7 and 10)                                                                 628,921              622,801
   Other Liabilities                                                                                      199                  199
               Total Intragovernmental Liabilities                                                   630,062              623,854
Accounts Payable                                                                                          564               3,534
                          (Note 10)
Deferred Revenue                                                                                  31,401,290           29,367,286
Pension and Other Actuarial Liabilities, Net                                                              423                  524
Other Liabilities                                                                                           6                  26
                                        (Note 9)
Commitments and Contingencies                                                                     19,732,972           19,112,937
               Total Liabilities (Note 8)                                                         51,765,317           49,108,161
NET POSITION
Unexpended Appropriations - Other Funds                                                               27,617               38,620
Cumulative Results of Operations - Other Funds                                                    (19,732,972)         (19,112,937)
               Total Net Position                                                                 (19,705,355)         (19,074,317)
               Total Liabilities and Net Position                                           $     32,059,962     $     30,033,844




The accompanying notes are an integral part of these statements.

                                                                      8
                                          UNITED STATES DEPARTMENT OF ENERGY

                                                   NUCLEAR WASTE FUND

                                                    Statements of Net Costs
                                       For the Years Ended September 30, 2012 and 2011
                                                     (Dollars in thousands)

                                                                                     FY 2012              FY 2011



First Repository Costs                                                          $           3,957     $         11,675
All Other Program Costs:
        Program Support                                                                     9,861               21,075
                                      (Note 7)
        Transfers of Appropriations                                                         3,400               13,863
        Waste Acceptance, Storage and Transportation                                        4,610                5,631
           Total All Other Program Costs                                                   17,871               40,569

           Total First Repository and Other Program Costs                                  21,828               52,244
                         (Note 10)
Less Earned Revenues                                                                       (21,828)            (52,244)

           Net First Repository Costs & Other Program Costs                                      -                   -
   Estimated liability for waste acceptance obligations                                  1,586,197           4,529,283
        Net Cost of Operations                                                  $        1,586,197    $      4,529,283




The accompanying notes are an integral part of these statements.

                                                            9
                                        UNITED STATES DEPARTMENT OF ENERGY

                                                 NUCLEAR WASTE FUND

                                           Statements of Changes in Net Position
                                      For the Years Ended September 30, 2012 and 2011
                                                    (Dollars in thousands)

                                                                                       FY 2012              FY 2011



CUMULATIVE RESULTS OF OPERATIONS

Beginning Balance                                                                  $     (19,112,937)   $     (15,382,186)

Other Financing Sources (Non-Exchange):
   Imputed Financing from Costs Absorbed by Others                                          966,162              798,532
        Total Other Financing Sources                                                       966,162              798,532
Net Cost of Operations                                                                    (1,586,197)          (4,529,283)
Net Change                                                                                 (620,035)           (3,730,751)
Ending Balance - Cumulative Results of Operations                                  $     (19,732,972)   $     (19,112,937)



UNEXPENDED APPROPRIATIONS
Beginning Balance                                                                  $         38,620     $         61,431
Budgetary Financing Sources Related to Appropriations:
   Appropriations Received (Note 2)                                                                -                    -
   Appropriations Used                                                                       (11,003)             (22,811)

        Total Budgetary Financing Sources Related to Appropriations                          (11,003)             (22,811)

Ending Balance Unexpended Appropriations                                                     27,617               38,620
Total Net Position                                                                 $     (19,705,355)   $     (19,074,317)




The accompanying notes are an integral part of these statements.

                                                         10
                                        UNITED STATES DEPARTMENT OF ENERGY

                                                  NUCLEAR WASTE FUND

                                              Statements of Budgetary Resources
                                       For the Years Ended September 30, 2012 and 2011
                                                     (Dollars in thousands)
                                                                                      FY 2012              FY 2011


BUDGETARY RESOURCES
Unobligated Balance, Brought Forward, October 1                                   $         24,409     $         54,715
Recoveries of Prior Year Unpaid Obligations                                                     14                   523
Unobligated Balance from Prior Year Budget Authority, net                                   24,423               55,238
                  (Note 2)
Appropriations                                                                                    -               (2,800)

   Total Budgetary Resources                                                      $         24,423     $         52,438

STATUS OF BUDGETARY RESOURCES

Obligations Incurred (Note 12)                                                    $          6,970     $         28,029

Unobligated Balance, End of Year:
   Apportioned                                                                               9,317               10,191
   Exempt from Apportionment                                                                 8,136               14,218
   Total Unobligated Balance, End of Year                                                   17,453               24,409
   Total Budgetary Resources                                                      $         24,423     $         52,438

CHANGE IN OBLIGATED BALANCE
Unpaid Obligations, Brought Forward, October 1                                    $         52,560     $         80,387
Obligations Incurred                                                                         6,970               28,029
Outlays (Gross)                                                                            (21,686)             (55,333)
Recoveries of Prior Year Unpaid Obligations                                                     (14)                 (523)
Obligated Balance, End of Year (Net)                                              $         37,830     $         52,560

NET OUTLAYS
Outlays, Gross                                                                    $         21,686     $         55,333
Distributed Offsetting Receipts                                                          (2,061,968)          (2,141,453)
Outlays, Net                                                                      $      (2,040,282)   $      (2,086,120)




The accompanying notes are an integral part of these statements.

                                                         11
                           UNITED STATES DEPARTMENT OF ENERGY
                                   NUCLEAR WASTE FUND
                                           Notes to Financial Statements
                                     September 30, 2012 and September 30, 2011

                                     (Dollars in thousands unless otherwise noted)

(1) Legislative Background
The Nuclear Waste Policy Act of 1982 (NWPA) was signed into law on January 7, 1983. The NWPA establishes a
framework for the financing, siting, licensing, operating and decommissioning of one or more mined geologic
repositories for the Nation’s spent nuclear fuel (SNF) and high-level radioactive waste (HLW) which is to be carried
out by the Department of Energy (Department or DOE). In addition, the NWPA contains other provisions including:

    •    Assigning responsibility for the full payment of disposal costs to the owners and generators of SNF and
         HLW and creating a special Nuclear Waste Fund (NWF) within the Department of Treasury of the United
         States for the collection of fees related to such costs;

    •    Providing for contracts between the Department and the owners and generators of SNF and HLW pursuant to
         which the Department is to take title to the SNF or HLW as expeditiously as possible, following
         commencement of repository operations and, in return for payment of fees established by the NWPA, to
         begin disposal of the SNF or HLW not later than January 31, 1998; and

    •    Requiring evaluation of the use of civilian disposal capacity for the disposal of HLW resulting from atomic
         energy defense activities (defense waste). In April 1985, the President notified the Department of his
         determination that a separate defense waste repository was not necessary and directed the Department to
         proceed with arrangements for disposal of such waste. Fees, equivalent to those paid by commercial owners,
         must be paid for this service by the Federal Government to the NWF account.

On December 22, 1987, the President signed into law the Budget Reconciliation Act, Subtitle A of Title V, of which
contained amendments to the NWPA. The legislation directed the Department to characterize only the Yucca
Mountain site in Nevada as a candidate site for the first repository. The legislation also provided for the termination
of site-specific activities at all candidate sites other than the Yucca Mountain site, within 90 days of enactment, and
for phasing out, not later than six months after enactment, all research programs in existence that were designed to
evaluate the suitability of crystalline rock as a potential repository host medium. In the event that the Yucca
Mountain site proves unsuitable for use as a repository, the legislation requires the Department to terminate site-
specific activities and report to Congress.

In fiscal year 2009, the President of the United States and the Department Secretary announced that a repository at
Yucca Mountain was not a workable option and that the repository program would be terminated. At that time, they
also announced that a Blue Ribbon Commission would be established to evaluate disposal alternatives. Accordingly,
on January 29, 2010, the Department Secretary announced the formation of a Blue Ribbon Commission on America's
Nuclear Future to provide recommendations for developing a safe, long-term solution to managing the Nation's used
nuclear fuel and nuclear waste. The Blue Ribbon Commission submitted a final report in January 2012 with their
recommendations on these issues for consideration by the Administration and Congress, as well as interested state,
tribal and local governments, other stakeholders, and the public. On February 1, 2010, the President issued the FY
2011 Budget Request with a zero budget request for the Nuclear Waste Fund Appropriation and the Defense Nuclear
Waste Disposal Appropriation (formerly known as and reported under the Office of Civilian Radioactive Waste
Management (OCRWM) prior to FY 2011). Consequently, the Department closed OCRWM on September 30, 2010,
and, on October 1, 2010, the Department reassigned prior responsibilities for the operations of OCRWM and its assets
and liabilities within the Department, herein referred to as the Nuclear Waste Fund (NWF).




                                                           12
                          UNITED STATES DEPARTMENT OF ENERGY
                                  NUCLEAR WASTE FUND
                                          Notes to Financial Statements
                                    September 30, 2012 and September 30, 2011

                                    (Dollars in thousands unless otherwise noted)


(2) Significant Accounting Policies

Basis of Presentation – These financial statements have been prepared to report the financial position and results
of operations of the NWF and include all activity related to the Nuclear Waste Fund Appropriation and the Defense
Nuclear Waste Disposal Appropriation, used for the disposal of SNF and HLW (formerly reported under the Office of
Civilian Radioactive Waste Management). The financial statements have been prepared from the books and records
of the Department for the NWF in accordance with accounting principles generally accepted in the United States of
America as applicable to Federal entities.

Basis of Accounting – The NWF’s financial statements are prepared using the accrual method of accounting.
Under the accrual method, revenues are recognized when earned, and expenses are recognized when a liability is
incurred without regard to receipt or payment of cash. The NWF also uses budgetary accounting to facilitate
compliance with legal constraints and to monitor its budget authority.

Revenue Recognition – Fees, related accrued interest, and investment income are recognized as exchange
(earned) revenue to the extent of expenses incurred, subject to Congressional authorization as discussed below. Fees
billed, related accrued interest, and investment income in excess of current expenses are deferred.

The NWPA requires the civilian owners and generators of nuclear waste to pay their share of the full cost of the NWF
and, to that end, establishes a fee for electricity generated and sold by civilian nuclear power reactors which the
Department must collect and annually assess to determine its adequacy. A one-time fee (see Note 5) was recorded by
the NWF as of April 7, 1983, related to the disposal of SNF generated prior to that date. Fees recognized by the NWF
are based upon kWh of electricity generated and sold by civilian nuclear reactors on and after April 7, 1983.

Fees associated with the disposal of the Department’s SNF and HLW are also recognized as the related costs are
incurred and allocated. To estimate the share of the total Program costs that should be allocated to the Department,
the methodology announced by the Department in the Federal Register in August 1987 was used. Department
management periodically updates the Analysis of the Total System Life Cycle Cost of the Civilian Radioactive Waste
Management Program (TSLCC), which establishes the amounts to allocate.

Appropriations – Expenditure authority for the NWF is provided by two separate appropriations as follows:

•   For fiscal years 2012 and 2011, Congress appropriated $0 from the Defense Nuclear Waste Disposal
    Appropriation to be used for nuclear waste disposal activities.

•   For fiscal years 2012 and 2011, Congress authorized $0 to be used for nuclear waste disposal activities and
    remain available until expended.

Fee payments and investment income are deposited into the NWF account and are made available to the Department
through the annual expenditure authority provided by Congress. Investments are made in U.S. Treasury securities
from funds in excess of current needs. If, at any time, monies available in the NWF are insufficient to discharge
responsibilities under the NWPA, borrowings may be made from the U.S. Treasury. The NWPA limits the NWF
from incurring expenditures, entering into contracts, and obligating amounts to be expended except as provided in
advance by appropriation acts. Appropriated dedicated receipts such as these are excluded from appropriations
received on the Statements of Changes in Net Position.




                                                         13
                            UNITED STATES DEPARTMENT OF ENERGY
                                    NUCLEAR WASTE FUND
                                           Notes to Financial Statements
                                     September 30, 2012 and September 30, 2011

                                     (Dollars in thousands unless otherwise noted)

(2) Significant Accounting Policies (continued)

Imputed Financing Sources – In certain instances, costs of the NWF are paid out of funds appropriated to
other federal agencies. For example, payments under the terms of settlements and judgments are paid by the U.S.
Treasury Judgment Fund (Judgment Fund). When costs directly attributable to NWF’s operations are paid by other
agencies, NWF recognizes these amounts in the Statements of Net Costs. In addition, these amounts are recognized as
imputed financing sources in the Statements of Changes in Net Position.

Earmarked Funds – NWF follows Statement of Federal Financial Accounting Standards (SFFAS) No. 27,
Identifying and Reporting Earmarked Funds, which requires separate identification of earmarked funds on the
Balance Sheets, Statements of Changes in Net Position, and other selected footnotes.

Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. These specifically identified revenues and other financing sources are required by
statute to be used for designated activities, benefits or purposes, and must be accounted for separately from the
Government’s general revenues (see Note 11).

Investments – Investments are in U.S. Treasury securities and are stated at cost net of amortized premiums and
discounts as it is the Department’s intent to hold the investments to maturity. Premiums and discounts are amortized
using the effective interest yield method (see Note 4).

General Property, Plant, and Equipment – Purchases of general property, plant, and equipment (PP&E)
exceeding $50 are capitalized if they have a useful life greater than two years. PP&E is depreciated on a straight-line
basis over the estimated useful lives of the assets. Useful lives range from 5 to 30 years. Maintenance costs are borne
by NWF for equipment either on loan from or shared with other programs.

Accounts Receivable – Payment of accounts receivable will not be complete until NWF starts accepting waste.
Interest is accrued quarterly on the outstanding amount receivable including accrued interest. The interest rate used is
the 13-week U.S. Treasury bill rate. An allowance for doubtful accounts related to one-time spent fuel fees has not
been recorded as of September 30, 2012 or 2011, as NWF is not obligated to accept waste without payment of fees.

Accrued Investment Interest Receivable – Investment interest is accrued on the outstanding investment
balance using the applicable interest rate for the investments.

Liabilities – Liabilities represent the amount of monies or other resources that are likely to be paid by NWF as the
result of a transaction or event that has already occurred. However, no liability can be paid by NWF absent an
appropriation. Liabilities for which an appropriation has not been enacted are therefore classified in these notes as
liabilities not covered by budgetary resources and there is no certainty that the appropriation will be enacted. Also,
liabilities other than contracts can be abrogated by the Government acting in its sovereign capacity.

Tax Status – NWF, as a part of the Department of Energy, which is a Federal agency, is not subject to federal,
state, or local income taxes.

First Repository Costs – For the fiscal years ended September 30, 2012 and 2011, first repository costs consist
primarily of Yucca Mountain costs. The general goals have been that of licensing and construction of a permanent
repository for nuclear waste at Yucca Mountain and to ready for acceptance of waste at the facility.



                                                           14
                           UNITED STATES DEPARTMENT OF ENERGY
                                   NUCLEAR WASTE FUND
                                          Notes to Financial Statements
                                    September 30, 2012 and September 30, 2011

                                    (Dollars in thousands unless otherwise noted)

(2) Significant Accounting Policies (continued)

Retirement Plans – Contractor Employees – NWF follows the requirements of the Financial Accounting
Standards Board’s Accounting Standard’s section Codification 715, “Compensation – Retirement Benefits” for
contractor employees. NWF’s integrated contractors maintain defined benefit pension plans under which they
promise to pay employees specified benefits, such as a percentage of the final average pay for each year of service.
NWF’s cost under the contract includes reimbursement of annual employer contributions to the pension plans. NWF
is the predominant fund for one integrated contractor, and records the net assets or liabilities of that contractor’s
pension plans as if it were the plan sponsor.

Use of Estimates – The preparation of financial statements requires management to make estimates and
assumptions that affect the amounts reported in the financial statements and accompanying notes. Significant items
subject to such estimates and assumptions include accounts receivable, estimated lives of general property, plant, and
equipment and commitments and contingencies.

Comparative Data – In FY 2012, changes to the presentation of the Statement of Budgetary Resources were
made, in accordance with guidance provided in OMB Circular A-136 and as such, activity and balances reported on
the FY 2011 Statement of Budgetary Resources have been reclassified to conform to the presentation in the current
year. Certain other prior year amounts have also been reclassified to conform to the current year presentation.

(3) Fund Balance with Treasury
Summaries of the status of fund balances with the U.S. Treasury for appropriated and special funds as of September
30, 2012 and 2011 are as follows:

                                                               Appropriated
As of September 30, 2012
                                                                 Funds              Special Funds            Total
Unobligated budgetary resources
        Available                                        $             9,317   $               8,136    $         17,453
Obligated balance not yet disbursed
        Undelivered orders                                            18,299                  17,819              36,118
        Accounts payable and deposit fund liabilities                  1,221                     491               1,712
        Budgetary resources invested in Treasury securit                   -                 (24,971)            (24,971)
Total FY 2012 Fund Balance with Treasury                 $           28,837    $              1,475 $            30,312


As of September 30, 2011                                       Appropriated
                                                                 Funds              Special Funds            Total
Unobligated budgetary resources
       Available                                        $             10,191   $              14,218    $         24,409
Obligated balance not yet disbursed
        Undelivered orders                                            28,429                  19,551              47,980
        Accounts payable and deposit fund liabilities                  2,358                   2,222               4,580
       Budgetary resources invested in Treasury securit                    -                 (34,281)            (34,281)
Total FY 2011 Fund Balance with Treasury                       $     40,978    $              1,710     $        42,688




                                                          15
                           UNITED STATES DEPARTMENT OF ENERGY
                                   NUCLEAR WASTE FUND
                                           Notes to Financial Statements
                                     September 30, 2012 and September 30, 2011

                                     (Dollars in thousands unless otherwise noted)

(4) Investments and Related Interest, Net
For the year ended September 30, 2012, the NWF received proceeds and realized gains from the redemption of
securities of $460,000 and $0, respectively. For the fiscal year ended September 30, 2011 NWF received proceeds
and realized gains from the redemption of securities of $881,963 and $0, respectively.

Investments in U.S. Treasury securities held as of September 30 of each year consisted of the following:

                                                                                      FY 2012                FY 2011
Intragovernmental Non-Marketable Market Based:

Face Value                                                                      $          49,552,478 $         48,610,652
Unamortized discount, net                                                                 (20,856,023)         (21,936,844)
Investments, net                                                                           28,696,455           26,673,808
Interest receivable                                                                            74,670               54,471
Investments and related interest, net                                                      28,771,125           26,728,279
Unrealized market gains, net                                                                9,969,441            8,414,650
Investments at fair value                                                       $          38,740,566 $         35,142,929

The federal government does not set aside assets to pay for expenditures associated with the funds for which the
Department holds Treasury securities. These Treasury securities are an asset to the Department and a liability to
Treasury. Because the Department and Treasury are both parts of the federal government, these assets and liabilities
offset each other from the standpoint of the federal government as a whole. For this reason, they do not represent an
asset or a liability in the U.S. Government-wide financial statements. Treasury securities provide the Department with
authority to draw upon the U.S. Treasury to make expenditures, subject to available appropriations and OMB
apportionments. When the Department requires redemption of these securities, the federal government finances those
expenditures out of accumulated cash balances by raising taxes or other receipts, by borrowing from the public,
repaying less debt, or by curtailing other expenditures. This is the same way the federal government finances all other
expenditures.

(5) Receivables Due from Utilities

Owners and generators of civilian SNF and HLW have entered into contracts with the Department for disposal
services and for payment of fees to the NWF.

The NWPA specifies two types of fees to be paid to the NWF for disposal services: (a) a one-time charge per
kilogram of heavy metal in solidified SNF or HLW existing prior to April 7, 1983; and (b) a one mil per kWh fee on
all net electricity generated and sold by civilian nuclear power reactors on and after April 7, 1983. The Secretary of
Energy shall annually review the adequacy of the fees established. In the event the Secretary of Energy determines
either insufficient or excess revenue is being collected, the Secretary of Energy shall propose an adjustment to the fee
to ensure full cost recovery. The kWh fees are due when billed. The contracts between the Department and the
owners and generators of the waste provide three options for payment of the one-time spent fuel fee, one of which
must have been selected by June 30, 1985, or within two years of contract execution. The options were:

1.   Payment of the amount due, plus interest earned from April 7, 1983, in 40 quarterly installments with the final
     payment due on or before the first scheduled delivery of SNF to the Department;

2.   Payment of the amount due, plus interest from April 7, 1983, in a single payment anytime prior to the first
     delivery of SNF to the Department; or

                                                           16
                             UNITED STATES DEPARTMENT OF ENERGY
                                     NUCLEAR WASTE FUND
                                             Notes to Financial Statements
                                       September 30, 2012 and September 30, 2011

                                      (Dollars in thousands unless otherwise noted)

(5) Receivables Due from Utilities (continued)
3.     Payment of the amount due any time prior to June 30, 1985, or two years after contract execution, in the form of
       a single payment, with no interest due.

Under options (1) and (2), interest accrues from April 7, 1983, to date of first payment at the 13-week U.S. Treasury
bill rate compounded quarterly. Under option (1), beginning with the first payment, interest is calculated at the 10-
year Treasury note rate in effect at the time.

In fiscal year 2012, there were no payments or adjustments of one-time spent fuel fees by owners and generators of
civilian SNF and HLW. In fiscal year 2011, payments of $163,102 one-time spent fuel fees and interest were
received.

Accounts receivables from public and intragovernmental utilities at September 30 of each year were as follows:

                                                                                       FY 2012              FY 2011
Accounts receivable:

 Accounts receivable - intragovernmental utilities
  Kilowatt hour fees                                                             $             13,433   $          13,439

 Accounts receivable - public utilities
  Kilowatt hour fees                                                                          161,114             167,568

     One-time spent nuclear fuel fees:
     Accounts receivable - one-time spent nuclear fuel fees
      Option (1)                                                                              144,273             144,273
      Option (2)                                                                              692,672             692,672
      Total accounts receivable one-time spent nuclear fuel fees                              836,945             836,945

  Accrued interest on one-time spent nuclear fuel fees:
   Option (1)                                                                                 385,393             385,112
   Option (2)                                                                               1,858,496           1,856,925
   Total accrued interest on one-time spent nuclear fuel fees                               2,243,889           2,242,037
Total accounts receivable - public utilities                                                3,241,948           3,246,550
Total accounts receivable - utilities                                            $          3,255,381   $       3,259,989


6) General Property, Plant, and Equipment, Net
General property, plant, and equipment and related accumulated depreciation consisted of the following as of
September 30, 2012 and 2011:

                                                                                       FY 2012              FY 2011

General property, plant, and equipment                                           $             24,567 $            26,919
Less accumulated depreciation                                                                 (24,188)            (26,458)
General property, plant, and equipment, net                                      $                379 $               461

                                                            17
                           UNITED STATES DEPARTMENT OF ENERGY
                                   NUCLEAR WASTE FUND
                                           Notes to Financial Statements
                                     September 30, 2012 and September 30, 2011

                                     (Dollars in thousands unless otherwise noted)

(7) Transactions with the Department and Other Federal Government Agencies
The NWPA established the NWF to carry out the provisions of the NWPA and created the Nuclear Waste Fund in the
U.S. Treasury. The investment and borrowing powers of the NWF are limited to transactions with the U.S. Treasury.
In discharging its obligations under the NWPA, the Department contracts for services with numerous contractors
including other Federal Government agencies. Further, significant administrative services are provided by the
Department.

As of September 30, 2012 and 2011, NWF owed other Federal Government agencies $942 and $854, respectively, for
services and costs provided to NWF. For the fiscal years ended September 30, 2012 and 2011, NWF incurred costs of
$6,105 and $5,781, respectively, for services and goods provided by other Federal Government agencies. In addition
to these incurred costs, NWF made the following Congressional authorized transfers from the NWF to the following
entities:

                                                                                    FY 2012               FY 2011

Nuclear Regulatory Commission                                                 $                   -   $          9,980
Nuclear Waste Technical Review Board                                                          3,400              3,883
                                                                              $               3,400   $         13,863


NWF has entered into Memoranda of Agreement (MOA) with the Department’s Office of Environmental
Management and the Department’s Office of Naval Nuclear Propulsion. The MOA established the terms and
conditions for acceptance of Department-owned SNF and HLW (Defense Waste) for disposal. Those estimated
liabilities are included in the TSLCC that is used to calculate the estimate of the Department’s share of total current
and future program costs for Defense Waste. The Department has paid amounts in excess of its estimated share of
costs and as a result has no liability to NWF as of September 30, 2012 and 2011.

The Department’s Defense Waste total cost share as of September 30, 2012 is estimated to be $2,440,473 and interest
amounting to $672,737 based on the methodology published in the Federal Register in August 1987. As of
September 30, 2012 and 2011, $628,921 and $622,801, respectively, was included in intragovernmental deferred
revenue representing the Department’s Defense expenditures in excess of the Department’s cost share to-date.




                                                           18
                           UNITED STATES DEPARTMENT OF ENERGY
                                   NUCLEAR WASTE FUND
                                           Notes to Financial Statements
                                     September 30, 2012 and September 30, 2011

                                    (Dollars in thousands unless otherwise noted)

(8) Liabilities Not Covered by Budgetary Resources

A summary of liabilities not covered by budgetary resources as of September 30, 2012 and 2011 is as follows:
                                                                                    FY 2012              FY 2011
Liabilities not covered by budgetary resources:
  Intragovernmental
     Deferred revenue (Note 10)                                              $            628,921   $         622,801
  Non-Intragovernmental
    Deferred revenue (Note 10)                                                         31,401,290          29,367,286
    Pension and other actuarial liabilities, net                                              423                 524
    Other liabilities                                                                           -                  18
    Commitments and contingencies (Note 9)                                             19,732,972          19,112,937
Total liabilities not covered by budgetary resources                                   51,763,606          49,103,566
Liabilities covered by budgetary resources:
  Intragovernmental
    Accounts payable                                                                          942                  854
    Other liabilities                                                                         199                  199
  Non-Intragovernmental
    Accounts payable                                                                          564               3,534
    Other liabilities                                                                           6                   8
Total liabilities covered by budgetary resources                                            1,711               4,595
Total Liabilities                                                            $         51,765,317   $      49,108,161


(9) Commitments and Contingencies
Spent Nuclear Fuel Litigation

In accordance with the Nuclear Waste Policy Act of 1982 (NWPA), the Department entered into contracts with more
than 45 utilities (standard contracts) in which, in return for payment of fees into the NWF, the Department agreed to
begin disposal of spent nuclear fuel (SNF) by January 31, 1998. Because the Department has no facility available to
receive SNF under the NWPA, it has been unable to begin disposal of the utilities’ SNF as required by the contracts.
Significant litigation claiming damages for partial breach of contract has ensued as a result of this delay.

To date, 31 suits have been settled involving utilities that collectively produce about 76 percent of the nuclear-
generated electricity in the United States. Under the terms of the settlements, the Judgment Fund, 31 U.S.C. 1304,
paid $1.92 billion as of September 30, 2012 to the settling utilities for delay damages they have incurred through
September 30, 2012. In addition, sixteen cases have been resolved by final judgments. Six of those cases resulted in
an award of no damages by the trial court and the remaining ten cases resulted in a total of $687.8 million in damages,
which has been paid by the Judgment Fund as of September 30, 2012.

The Department’s SNF litigation liability is updated to include the effects of final judgments and settlements as well
as payments to date from the Judgment Fund. Additional payments under these settled and adjudicated cases may be
made if the utilities incur additional costs before the Department permanently disposes of the SNF. The Department
believes its assumptions and methodology provide a reasonable basis for the contingent liability estimate.




                                                          19
                            UNITED STATES DEPARTMENT OF ENERGY
                                    NUCLEAR WASTE FUND
                                            Notes to Financial Statements
                                      September 30, 2012 and September 30, 2011

                                     (Dollars in thousands unless otherwise noted)

(9) Commitments and Contingencies (continued)
Twenty-seven cases remain pending either in the Court of Federal Claims or in the Court of Appeals for the Federal
Circuit. Liability is probable in these cases, and in many of these cases orders have already been entered establishing
the Government’s liability and the only outstanding issue to be litigated is the amount of damages to be awarded. The
industry is reported to estimate that damages for all utilities with which the Department has contracts ultimately will
be at least $50 billion. The Department believes that the industry’s estimate is highly inflated and that the disposition
of the 55 cases that have either been settled or subject to a judgment in the trial court suggests that the Government’s
ultimate liability is likely to be significantly less than that estimate. Accordingly, based on these settlement estimates,
the total liability estimate is $22.3 billion. After deducting the amount paid as of September 30, 2012, under these
settlements and as a result of final judgments, a total of $2.6 billion, the remaining liability is estimated to be
approximately $19.7 billion. Under current law, any damages or settlements in this litigation will be paid out of the
Judgment Fund. The Department’s contingent liability estimate for SNF litigation is reported net of amounts paid to
date from the Judgment Fund.

The Department previously reported several developments that made it difficult to reasonably predict the amount of
the Government’s likely liability. The courts have since resolved that jurisdiction for these cases is appropriate in the
Court of Federal Claims and that the Government cannot assert the unavoidable delays defense, under which, if it
were applicable, the Government would not be liable for any damages. Furthermore, in fiscal year 2009 the
Administration determined Yucca Mountain was not a workable solution and established a Blue Ribbon Commission
in January 2010 to evaluate alternatives. Future determinations on how the Department will meet its obligations
under the standard contracts could materially decrease or increase the SNF litigation liability.




                                                            20
                           UNITED STATES DEPARTMENT OF ENERGY
                                   NUCLEAR WASTE FUND
                                           Notes to Financial Statements
                                     September 30, 2012 and September 30, 2011

                                    (Dollars in thousands unless otherwise noted)

(10) Deferred Revenue
As described in Note 2, all fees, both kWh fees and Defense high-level radioactive waste fees, as well as the related
interest and investment income, are recognized as revenue to the extent of expenses incurred. Amounts in excess of
current expenses are deferred. Deferred revenue as of September 30, 2012 and 2011 was as follows:

                                                                                      FY 2012                FY 2011
Intragovernmental
   Fees billed:
      One-time spent nuclear fuel fees:
      kWh fees                                                                  $              52,955    $          47,312
      Defense high-level waste fees                                                            11,003               22,811
   Interest:
      Income on investments                                                                 1,302,407            1,292,771
Non-intragovernmental
   Fees billed:
       kWh fees                                                                               692,857              703,784
   Interest:
      One-time spent nuclear fuel fees                                                          1,852                3,283
   Other revenue                                                                                  878                    -
         Total revenues                                                                     2,061,952            2,069,961
   Less earned revenue                                                                        (21,828)             (52,244)
         Change in deferred revenue                                                         2,040,124            2,017,717
   Deferred revenue - beginning balance                                                    29,990,087           27,972,370

   Deferred revenue - ending balance                                            $          32,030,211    $      29,990,087




                                                          21
                                   UNITED STATES DEPARTMENT OF ENERGY
                                           NUCLEAR WASTE FUND
                                                       Notes to Financial Statements
                                                 September 30, 2012 and September 30, 2011

                                                 (Dollars in thousands unless otherwise noted)

(11) Earmarked Funds
                                                           Earmarked                                                       Earmarked
                                                                               All Other Funds         FY 2012                             All Other Funds       FY 2011
                                                             Funds                                                           Funds
Balance Sheet

Assets
Fund Balance with Treasury                             $          1,475    $              28,837   $         30,312    $          1,710    $       40,978    $        42,688
Investments, Net                                             28,771,125                        -         28,771,125          26,728,279                 -         26,728,279
Accounts Receivable                                           3,255,381                        -          3,255,381           3,259,989                 -          3,259,989
Prepaid Pension Asset, Net                                        2,485                        -              2,485               1,653                 -              1,653
General Property, Plant, and Equipment, Net                         187                      192                379                 210               251                461
Other Assets                                                        280                        -                280                 774                 -                774
Total Assets                                           $     32,030,933    $              29,029   $     32,059,962    $     29,992,615    $       41,229    $    30,033,844
Liabilities and Net Position
Accounts Payable                                       $            286    $               1,220 $            1,506    $          2,030    $         2,358 $            4,388
Deferred Revenue                                             32,030,019                      192         32,030,211          29,989,836                251         29,990,087
Pension and Other Actuarial Liabilities                             423                        -                423                 524                  -                524
Other Liabilities                                                   205                        -                205                 225                  -                225
Commitments and Contingencies                                         -               19,732,972         19,732,972                   -         19,112,937         19,112,937
Unexpended Appropriations                                             -                   27,617             27,617                   -             38,620             38,620
Cumulative Results of Operations                                      -              (19,732,972)       (19,732,972)                  -        (19,112,937)       (19,112,937)
Total Liabilities and Net Position                     $     32,030,933    $              29,029 $       32,059,962    $     29,992,615    $        41,229 $       30,033,844

Statement of Net Costs
Total First Repository and Other Program Costs         $         10,766 $                 11,062 $           21,828    $         29,369 $           22,875 $          52,244
Less Earned Revenues                                            (10,766)                 (11,062)           (21,828)            (29,369)           (22,875)          (52,244)
Net First Repository Costs                                            -                        -                  -                   -                  -                 -
Estimated liability for waste acceptance obligations                  -                1,586,197          1,586,197                   -          4,529,283         4,529,283
Net cost of operations                                 $              - $              1,586,197 $        1,586,197    $              - $        4,529,283 $       4,529,283

Statement of Changes in Net Position
Beginning Balance - Cumulative Results of Operations   $               -   $         (19,112,937) $     (19,112,937)   $               -   $   (15,382,186) $     (15,382,186)
Imputed Financing from Costs Absorbed by Others                        -                 966,162            966,162                    -           798,532            798,532
Net Cost of Operations                                                 -              (1,586,197)        (1,586,197)                   -        (4,529,283)        (4,529,283)
Ending Balance - Cumulative Results of Operations      $               -   $         (19,732,972) $     (19,732,972)   $               -   $   (19,112,937) $     (19,112,937)

Beginning Balance - Unexpended Appropriations          $               -   $              38,620 $           38,620    $               -   $        61,431 $           61,431
Appropriations Received                                                -                       -                  -                    -                 -                  -
Appropriations Used                                                    -                 (11,003)           (11,003)                   -           (22,811)           (22,811)
Ending Balance - Unexpended Appropriations                             -                  27,617             27,617                    -            38,620             38,620
Total Net Position                                     $               -   $         (19,705,355) $     (19,705,355)   $               -   $   (19,074,317) $     (19,074,317)



Explanation of Differences between the Statement of Budgetary Resources and the Budget of the United
States Government

The NWF had no differences between the Statement of Budgetary Resources and the Budget of the United States
as of September 30, 2011. The statement can be reconciled to the President's budget by combining both of the
budgets for Defense Nuclear Waste Disposal (89-X-0244) and Nuclear Waste Disposal (89-X-5227). The
reconciliation as of September 30, 2012 is not presented, because the submission of the FY 2014 budget occurs
after publication of these financial statements. The NWF's Budget Appendix can be found under the Department
of Energy on the OMB website (http://www.whitehouse.gov/omb/budget) and will be available in early
February 2013.




                                                                                22
                           UNITED STATES DEPARTMENT OF ENERGY
                                   NUCLEAR WASTE FUND
                                              Notes to Financial Statements
                                        September 30, 2012 and September 30, 2011

                                        (Dollars in thousands unless otherwise noted)

(12) Reconciliation of Net Cost of Operations to Budget

The objective of this information is to provide an explanation of the differences between budgetary and financial
(proprietary) accounting. This is accomplished by means of a reconciliation of budgetary obligations and non-
budgetary resources available to the reporting entity with its net cost of operations.
                                                                                    FY 2012               FY 2011

RESOURCES USED TO FINANCE ACTIVITIES:
Budgetary Resources Obligated:
   Obligations Incurred                                                         $           6,970     $         28,029
   Less: Spending Authority from Offsetting Collections
   and Recoveries                                                                              (14)                 (523)
   Obligations, Net of Offsetting Collections and Recoveries                                6,956               27,506
   Offsetting Receipts:
        Fees for Disposal of Spent Nuclear Fuel                                          (752,269)            (795,062)
        Earnings on Investments                                                         (1,309,699)          (1,346,391)
   Total Offsetting Receipts                                                            (2,061,968)          (2,141,453)
   Net Obligations                                                                      (2,055,012)          (2,113,947)
Other Resources:
   Imputed Financing from Costs Absorbed by Others                                        966,162              798,532
   Other:
        Offsetting Receipts, Deferred                                                   2,862,656            3,243,378
        Adjustment for Department of Energy Appropriation                                 (11,003)             (22,811)
            Total Other                                                                 2,851,653            3,220,567
   Net Other Resources Used to Finance Activities                                       3,817,815            4,019,099
Total Resources Used to Finance Activities                                      $       1,762,803     $      1,905,152
RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
OPERATIONS:
Change in Resources Obligated for Goods/Services/Benefits Ordered But Not Yet
Provided                                                                        $          12,355     $         23,058
Resources that Finance the Acquisition of Assets                                                 -                   59
Total Resources Used to Finance Items Not Part of the Net Cost of Operations               12,355               23,117

Total Resources Used to Finance the Net Cost of Operations                      $       1,775,158     $      1,928,269
NET COST ITEMS THAT DO NOT REQUIRE OR GENERATE RESOURCES IN
CURRENT PERIOD:
Increases in Unfunded Liability Estimates                                       $         619,084     $      3,718,395
Components Not Requiring or Generating Resources:
   Depreciation and Amortization                                                         (763,963)           (1,024,447)
   Revaluation of Assets and Liabilities                                                      (876)
   Other                                                                                  (43,206)             (92,934)
    Total Components Not Requiring or Generating Resources                               (808,045)           (1,117,381)
Total Net Cost Items That Do Not Require or Generate Resources in Current
Period                                                                                   (188,961)           2,601,014
NET COST OF OPERATIONS                                                          $       1,586,197     $      4,529,283



                                                               23
                     UNITED STATES DEPARTMENT OF ENERGY
                             NUCLEAR WASTE FUND
   Required Supplementary Stewardship Information for Research and Development for the fiscal years
          ending September 30, 2012 – (Unaudited – See Accompanying Auditors’ Report)

                              (Dollars in thousands unless otherwise noted)

Expenses for research and development programs applicable to the Nuclear Waste Fund to conduct
activities on the long-term storage of high-level nuclear waste at a permanent underground repository were
as follows:
                                                                           Depreciation
                                                                            & Other
                                                                           Managerial
                                                         Direct Cost          Cost              Total Cost


FY 2012 APPLIED
 Environmental Quality                                       $0                 $0                  $0

FY 2011 APPLIED
 Environmental Quality                                       $0                 $0                  $0

FY 2010 APPLIED
 Environmental Quality                                      $189                $63                $252

FY 2009 APPLIED
 Environmental Quality                                     $1,647               $66               $1,713

FY 2008 APPLIED
 Environmental Quality                                     $8,364               $93               $8,457




                                                    24
                    UNITED STATES DEPARTMENT OF ENERGY
                            NUCLEAR WASTE FUND
                               Supplementary Information - Schedule I
                 Schedule of Cumulative Net First and Second Repository Costs for the
                               Thirty Years Ended September 30, 2012

                             (Dollars in thousands unless otherwise noted)



First Repository Costs                                                                  $    7,502,404
All Other Program Costs:
   Program Support                                                                            2,172,964
  Transfers of Appropriations                                                                   656,897
   Waste Acceptance, Storage and Transportation                                                 766,758
   Imputed and Other Costs                                                                      152,506
      Total All Other Program Costs                                                           3,749,125
Second Repository Costs                                                                         108,896
      Total First and Second Repository Costs and Other Program Costs                        11,360,425
Less Earned Revenue                                                                         (11,341,889)
      Cumulative Net First and Second Repository Costs                                  $        18,536




                                                  25
                     UNITED STATES DEPARTMENT OF ENERGY
                             NUCLEAR WASTE FUND
                               Supplementary Information - Schedule II
                Schedule of Cumulative Revenues and Deferred Revenue as of and for the
                               Thirty Years Ended September 30, 2012

                               (Dollars in thousands unless otherwise noted)


Intragovernmental:
   Fees billed:
      kWh fees                                                                           $      915,347
      One-time spent nuclear fuel fees                                                          174,598
      Defense high-level waste fees                                                           3,742,187
   Interest:
      Income on investments                                                                  16,075,098
Non-intragovernmental:
   Fees billed:
      kWh fees:                                                                              17,190,455
      One-time spent nuclear fuel fees                                                        2,174,802
   Interest:
      One-time spent nuclear fuel fees                                                         2,392,485
Other revenue                                                                                    707,128
         Total revenues                                                                       43,372,100
Less earned revenue                                                                          (11,341,889)
Deferred revenue                                                                         $    32,030,211




                                                    26
                                                                    IG Report No. OAS-FS-13-05

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
